No.
In the Supreme Court of the United States

JUAN E. SEARY-COLON, A/K/A RICKY DIABLO,
PETITIONER
v.
UNITED STATES,
RESPONDENT
MOTION REQUESTING LEAVE OF COURT TO APPEARANCE ON
BEHALF OF THE PETITIONER JUAN E. SEARY-COLON, A/K/A RICKY
DIABLO
COMES NOW, Petitioner, through undersigned counsel, and hereby very
respectfully moves as follows:
1.

Undersigned counsel is a member in good standing and he has been

employed to represent Petitioner. Accordingly, we hereby very respectfully move for
leave of court to permit this counsel to appear on behalf of Petitioner.
WHEREFORE, it is respectfully requested to this Honorable Court to take
notice of the information and to permit the instant appearance on behalf of Petitioner.

1

RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, this 1st day of June, 2021.

/s/ Johnny Rivera-González
Johnny Rivera-González, Esq.
U.S.C.A. - First Cir. Bar No. 43285
U.S.D.C. - P.R. Bar No. 207710
P.O. Box 192397
San Juan, P.R. 00919-2397
Tel. No. (787) 470-4986
E-Mail: goodjrg@gmail.com

CERTIFICATE OF SERVICE: I hereby certify that on today’s date I
electronically filed the foregoing with the Clerk’s of the Court using the U.S.
Supreme Court CM/ECF system which will automatically send notification of such
filing to all the parties of interest and record.
In San Juan, Puerto Rico, this 1st day of June, 2021.
/s/ Johnny Rivera-González
Johnny Rivera-González, Esq.

2

